                       AGENCY FOR INTERNATIONAL DEVELOPMENT
                              OFFICE OF THE REGIONAL INSPECTOR GENERAL
                                                                                                                       Unit 3110
                                      SAN SALVADOR, EL SALVADOR                                                   APO AA 34023
                                                                                                            Telephone 298-l 666
                                                                                                            FAX: (503) 228-5459




                                                                                                    October 30, 1998


    MEMORANDUM FOR USAIDKolombia Director, Carl A. Cira, Jr.

    FROM:             RIG/A/San Salvador, Timothy E. Cox

    SUBJECT:          Audit of the Quality of Results Reported inW  AID/Colombia’s Results Review
                      and Resource Request (R4) Report Prepared in 1997 (Report No. 1-5 14-99-003-P)

    This memorandum is our report on the subject audit. The report contains one recommendation
    for your action. Please advise me within 30 days of actions planned or already taken to reach
    a management decision on the recommendation.

    I appreciate the cooperation extended to my staff during the audit.

    Background
    Passage of the Government Performance and Results Act of 1993 (Results Act) was intended,
    among other things, to improve the effectiveness of federal programs and public accountability
    by promoting a new focus on results. The General Accounting Office (GAO) noted that key
    steps in building a successful results-oriented organization include collecting and using
    performance information in the decision making process. Congress also recognized, in the
    Results Act, that agency managers need performance information to facilitate decision making
    leading to programs that meet intended goals. GAO also noted that successful implementation
    of the Results Act is dependent on good information for decision making purposes. In this
    regard, we adopted five characteristics of what we believe is good management information:
-   objectively verifiable, supported, accurate, complete, and validated.

    Since USAID was established in 1961, it has initiated numerous systems to report on program
    results. However, none of these systems have been fully successful. Over the past several years,
    the Office of Inspector General (OIG) has intermittently reported on weaknesses in USAID’s
    ability to measure and report reliable program performance information. Examples of these audit
    reports include: 1

    0
             A June 1995 audit which reported that USAID needed better direction and control
             procedures to ensure that (1) objectively verifiable and measurable indicators were


            The three audit reports referred to in this paragraph are Audit Report No. l-000-95-006 (dated June 30, 1995),
    Audit Report No. 0-000-98-001-F (dated March 2, 1998), and Audit Report No. 9-000-98-001-P (dated March 26, 1998).




               ---                 -
           established to measure program performance and (2) reliable and useful performance data
           were reported and documented.

           A March 1998 audit of USAID’s fiscal year 1996 financial statements which showed that
           29 of the 38 (76 percent) quantified results reported in the program performance section
           of the overview section were either incorrect, unsupported, or vaguely set forth.

           Another audit report issued in March 1998 which disclosed that 10 of 11 overseas
           missions reviewed had not developed, or had not finalized, a formal and ongoing system
           of data collection and verification to report good performance data.

    In light of the problems reported, the OIG was concerned that these conditions may be pervasive
    throughout USAID. This USAID-wide audit of selected operating units was therefore carried out
    to (1) establish a baseline for future OIG audit work, (2) identify problems with current data
    reporting, and (3) develop recommendations for improving data reporting. This audit was not
    intended to assess the quality of performance indicators, but rather to determine if the
    performance results reported in the Results Review and Resource Requests (R4s) by operating
    units were objectively verifiable, supported, accurate, complete, and validated. This audit of
    USAID/Colombia is one of 18 audits being done on a USAID-wide basis.

    USAIDKolombia’s R4 prepared in 1997 was approved by U&LID/Washington in April 1997,
    and included 15 indicators for which performance results (or baseline data) were reported for
    fiscal year 1996. As of September 30, 1997, USAIDKolombia had obligated and expended in
.   support of its active programs a total of $29.2 million and $23.5 million, respectively.


    Audit Objective
    The Regional Inspector General/San Salvador, as part of a USAID-wide audit, performed the
    audit to answer the following question:

           Did USAID/Colombia report results data in its Results Review and Resource Request
           prepared in 1997 which were objectively verifiable, supported, accurate, complete,
           and validated?                  -fi

    Appendix I describes in detail the audit’s scope and methodology.




            ---              -
    Audit Findings

    Did USAIDIColombia Report Results Data in its Results Review and
    Resource Request Prepared in 1997 Which Were Objectively Verifiable,
    Supported, Accurate, Complete, and Validated?
    USAID/Colombia did not report results data in its R4 prepared in 1997 which were objectively
    verifiable, supported, accurate, complete, and/or validated. In order to fully meet these standards,
    improvements were needed in all of the 15 results reported in the R4.

    Federal laws and regulations require federal agencies to develop and implement internal
    management control systems that: (1) compare actual program results against those anticipated;
    (2) provide for complete, reliable, and consistent information; and (3) ensure that performance
    information is clearly documented and that the documentation is readily available for
    examination. For example, Office of Management and Budget (OMB) Bulletin 93-06 requires
    agencies to have internal control systems to provide reasonable assurance that support for reported
    performance results is properly recorded and accounted for to permit preparation of reliable and
    complete performance information. (See Appendix III for a further discussion of relevant laws
    and regulations, as well as related USAID policies and procedures.)

    For the purpose of this audit, the following definitions are used:

    0
           Objectively Verifiable-Indicators are to be objective and the results are to be objectively
           verifiable. This means an indicator has no ambiguity about what is being measured; that
           is, there is general agreement over interpretation of the results. Indicators are also to be
           both unidimensional and operationally precise. To be unidimensional means that it
           measures only one phenomenon at a time, and operational precision means no ambiguity
           over what kind of data would be collected for an indicator.

    l
           Supported-This means that adequate documentation supports the reported result. The
           support should be relevant, competent, and sufficient (as noted in the GAO’s Government
-          Auditing Standards). For example, a memo of a telephone conversation, or “best guesses”
           would not be considered adequate do;umentation.

           Accurate-This includes (1) being within plus or minus one percent (1.0 percent) of the
           actual documented result; and (2) being consistent with what was to be measured under
           the indicator (e.g., if the indicator was the number of children vaccinated under 5 years
           of age, then the result would not be consistent if the supporting documents show that the
           result was for children under 3 years of age). A result would also not be considered
           accurate if supporting documents showed that it was achieved prior to January 1, 1996.
           Since we only reviewed results in the R4 performance data tables for 1996, a result would



                                                     3
             not be considered accurate if supporting documents showed that the result was achieved
             in 1992.

             Complete-This means that the result (1) included all data which was anticipated to be
             measured for the indicator and (2) was for a full year. For example, if 20 regions were
             to be measured but only 18 regions were measured, the result would not be complete.
             Also, if the results were only for a partial year (e.g., a six-month period), then the result
             would not be complete.

             Validated-This refers to the source of the data and the reliability of that source. For the
             purpose of this audit, we considered a source reliable if it is independent, such as the
             World Bank, United Nations (U.N.), independent evaluators, or an independent
             Demographic and Health Survey. If the data came from a recipient involved with the
             program, or from the host country government, the data would only be considered from
             a reliable source if USAID or an independent entity had performed an assessment of the
             data and/or system for generating the data and found the data or system to be reliable.
             (Note: For the purposes of this audit, we are not reviewing USAID’s determination of
             validity of these independent sources. USAID’s validation process for external
             information will be assessed at a later time in another audit.)

    As shown in Appendix II, our audit identified problems with all 15 performance results reported
    in the R4 for 1996 (which was prepared in 1997). A breakdown and examples of these problems
    are as follows:*

    0
             Results for two indicators were not objectively verifiable. For example, one intended
             result was the establishment of an environmental endowment for which the performance
             indicator and unit of measure was the percentage of development and implementation of
             a long-term self-sufficient financial strategy. The R4 reported that the actual result for
             1996 was 20 percent. However, this indicator is not objectively verifiable. Specific
             criteria had not been established to objectively measure progress in implementing the
             anticipated self-sufficient financial strategy. Furthermore, the indicator is not clear as to
             whether the percentage applies to development or implementation of the strategy.
             USAID/Colombia officials said the 20 percent was based on the preparation of an early
-            draft of a 1996 Consolidation Plan. .A

             Results for three indicators were not supported. For example, one indicator was length
             of time from opening of a preliminary investigation to achieving an investigative result.



         * To avoid duplicating the problems related to the reported results (e.g., a reported result could be both not
    supported and not accurate), we classified indicator results as having only one problem according to the following
    hierarchy: not objectively verifiable, not supported, not accurate and not complete. We did, however, classify results as
    not validated (if applicable) in addition to another problem because we believe that the requirement for operating units
    to assess the quality of data sources was a distinct function and potentially related to each of the types of problems
    included in the hierarchy.

                                                               4




                   --              -
           The R4 reported 60 days. However, USAIDEolombia officials did not have supporting
           documentation for this data.

           Results for two indicators were not accurate. For example, one indicator was the
           percentage of investigative findings resulting from the preliminary investigations of such
           crimes on the regional and other selectedprosecutorial units. The R4 reported 26 percent
           for the regional units and 48 percent for the ordinary units. However, documentation
           provided by USAIDKolombia officials showed significantly different results-49 percent
           for the regional units and 62 percent for the ordinary units.

           Results for eight indicators were not complete. For example, for the indicator percentage
           of court findings resulting from total of cases addressed in the courts in a year, the result
           was to include regional, ordinary and municipal courts. However, the reported result of
           60 percent was for only municipal courts and did not include other courts.

           Another indicator was the number of conflicts annually resolved through alternative
           conflict resolution mechanisms operating in conciliation centers. The R4 reported 13,303
           agreements reached and 3,333 conciliations reached. However, the R4 noted that these
           results were not based on complete data since only 98 of the 140 centers reported
           information.

           Results for 11 indicators were not validated. These results were primarily based on
           information from the Government of Colombia Ministry of Justice or other justice system
           entities. However, neither USAIDKolombia nor an independent entity had performed an
           assessment of the data and/or system for generating the data.

    In some cases, a result had a problem because of more than one reason. However, to avoid
    duplication, we classified a result as having only one problem (except for validation). A specific
    example is for the indicator length of time from opening of a preliminary investigation to
    achieving an investigative result. The result was supposed to include data from special units
    dealing with ordinary prosecutorial units and courts and from regional units and courts. The R4
    reported a result of 60 days. However, the R4 noted that this result did not include data on
    regional units and courts. Furthermore, USAID/Colombia did not have documentation available
-   to support even the 60 days. Thus, although the reported result was not based on complete data,
    we classified this result only as “not supported.”

    Another indicator with more than one problem was percentage of decisions (dismissal or
    indictment) resulting from formal criminal investigations in the regional or other selected
    prosecutorial units. The reported results were 27 percent for the regional courts and 39 percent
    for the ordinary courts. However, the actual results were 47 percent and 55 percent respectively.
    The inaccurate results were reported because they were based on data from a six-month period
    (January 1996 to June 1996) instead of a full year. Thus, although the data was also not
    complete, we classified the result as “not accurate.”



                                                     5




                _-            -
    The above problems existed because USAIDKolombia did not always follow or was not
    successful in following prescribed USAID policies and procedures (Automated Directives System
    [ADS] 200 Series) for measuring and reporting on program performance. For example,
    USAID/Colombia:

    0        Did not ensure two indicators were objective as prescribed by ADS E203.5.5.

    0
             Did not always (1) assess data quality as part of the process of establishing performance
             indicators and choosing data collection sources and methods; (2) critically assess the
             performance data at regular intervals to ensure the data are of reasonable quality and
             accurately reflect performance; and (3) reassess data quality as is necessary but at intervals
             of no greater than three years as prescribed by ADS E203.5.5.

             Did not, in three cases, maintain documentation to support reported results as prescribed
             by ADS E203.5.5.3

    USAID/Colombia officials cited several additional explanations for the problems. The officials
    said that more accurate and complete data was not available for a full year and they sometimes
    had to rely on telephone conversations to get the information. The officials also said they had
    not performed critical assessments to determine the reliability of performance data reported by
    the Government of Colombia and others because they did not have the resources necessary to
    perform such assessments. The officials also acknowledged that they have not emphasized the
    importance of ensuring that supporting documentation is maintained for reported results. They
    also said they did not have the expertise needed in all cases to develop objective indicators.

    Furthermore, documentation related to the 1997 review showed that USAID/Colombia requested
    assistance from USAIDIWashington to (1) refine performance indicators and targets and (2)
    provide training in performance measurement methodology. However, USAIDKolombia officials
    said that the requested assistance was not provided. In the interim, USAIDKolombia hired a
    contractor to assist in developing better indicators at the time of our audit.4


             The guidance requires the operating unit to establish a performance monitoring system to collect and analyze
-   data which will enable it to assess its progress in achieving results. This system should: (1) provide a detailed definition
    of the performance indicators to be tracked; (2) specify the data source and its method and schedule of collection; and
    (3) assignresp onsibility for data collection to an office team or individual.

          4 It should also be noted that USAIDAVashington bureaus are responsible for providing support to operating units
    to develop effective performance monitoring systems to report on program results and for reviewing the R4 process. For
    example, USAID’s policies and procedures (ADS Sections 201 S. 11 a and 203.3) stipulate that the Bureau for Policy and
    Program Coordination should (1) ensure the adequacy of operating units’ strategic plans for measuring performance and
    documenting impact, and (2) provide technical leadership in developing USAID and operating unit performance
    monitoring and evaluation systems. These policies and procedures also stipulate that each regional bureau (e.g., Bureau
    for Latin America and the Caribbean) should (1) provide oversight and support to operating units in developing their
    strategic plans for measuring program performance; (2) support its operating units in achieving approved objectives, and
    review and report annually those units’ performance in achieving their objectives; and (3) manage the R4 submissions
    for operating units under its authority. The issue of USAID/Washington support and oversight will be addressed in
    another audit report which will be issued on completion of this USAID-wide audit.

                                                                 6




                    ---
Without reliable performance data, decision makers have little assurance whether an operating
unit met, exceeded or fell short in achieving its program objectives and related targets. In our
opinion, the problems with performance indicators and results reporting cited in this report impair
USAID/Colombia’s and USAID management’s ability to (1) measure progress in achieving
program objectives, and (2) use performance information in budget allocation decisions. The
problems also impair USAID’s ability to comply with laws and regulations.

       Recommendation No. 1: We recommend that USAIDKolombia:

       101     ensure its performance indicators in the R4 prepared in 1999 are objective
               and clearly defined regarding what specific results are to be measured; and

       1.2     ensure that the performance data identified in its R4 prepared in 1999 are
               supported, accurate, complete, and validated; or fully disclose in the R4 any
               data limitations and their implications for assessing the measurement and
               achievement of performance targets for each performance indicator, and a
               time frame for resolving the problems.


Management Comments and Our Evaluation
USAIDKolombia did not provide comments on our draft audit report. However, the Mission did
provide comments on an earlier discussion draft that we presented at the audit exit conference.
We considered these comments in preparing the final audit report.
                                                                                        APPENDIX I
                                                                                         Page 1 of 2
               .
                                                                                    I
                                  SCOPE AND
                                 METHODOLOG Y
               II                                                                  II




Scope
We audited USAIDKolombia’s internal management controls for ensuring that it reported
objectively verifiable, supported, accurate, complete and validated performance results data in its
Results Review and Resource Request (R4) report (See pages 3 and 4 of this report for
definitions). We audited only the results (including baseline data) reported for 1996 in the R4
prepared in 1997. The audit was performed in accordance with generally accepted government
auditing standards and was conducted at USAIDKolombia from January 20, 1998 through
January 29, 1998.

We limited our work on the validity and reliability of data to the results for only (1) the
performance indicators identified in the “performance data tables” in the R4 prepared in 1997,
and (2) the actual results for which such data was shown for 1996. Therefore, if no actual results
for an indicator were shown for 1996, we did not assess the validity and reliability of the results
for that indicator. We did not review results reported in the narrative portion of the R4.

We did not attempt to determine if the baseline data for a prior year and the results reported for
1996 were consistent and based on comparable data.


Methodology
This audit is part of a USAID-wide audit. The Office of Inspector General’s Performance Audits
Division in Washington, D.C. is the lead office. Operating units were selected using a random
sample based on assistance from statisticians from the Department of Defense’s Office of
Inspector General. For USAIDEolombia, we reviewed all 15 performance indicators for which
a result was reported in the 1997 R4.

To accomplish the audit objective, we interviewed officials from USAIDKolombia and its
implementing partners. We also reviewed the documents which supported the reported results.
Where problems were found, we verified to the extent practical, the causes of the problems. This
included additional interviews with Mission personnel, and reviews of additional documentation
from the Mission and its implementing partners.
                                                                                    APPENDIX I
                                                                                     Page 2 of 2

To avoid duplicating the problems related to the reported results (e.g., a reported result could be
both not supported and not accurate), we classified indicator results as having only one problem
according to the following hierarchy: not objectively verifiable, not supported, not accurate and
not complete. We did, however, classify results as not validated (if applicable) in addition to
another problem because we believe that the requirement for operating units to assess the quality
of data sources was a distinct function and potentially related to each of the types of problems
included in the hierarchy. We did not assess whether a result was validated if the result was not
objectively verifiable.

If the results reported were found to be objectively verifiable, supported, accurate, complete and
validated: (a) 95 percent or more of the time, (b) 80 to 94 percent of the time, or (c) less than
80 percent of the time, we would provide a positive, qualified, or negative answer to the audit
question, respectively.
                                                                                                         APPENDIX II
                                                                                                           Page 1 of 3

                        Analysis of USAID/Colombia’s 1996 Indicators and Results
                                 (as reflected in its R4 prepared in 1997)5



                                        Objectively   Supported?    Accurate?   Complete?   Validated?     Explanation of
               Indicator                Verifiable?                                                       problem, if any,
                                                                                                           except for not
                                                                                                             validated

 (1) Percentage of court findings           Yes          Yes        Unknown        NO          No         Data was for the
 on crimes investigated plus                                                                              period January to
 confirmation of findings by a                                                                               June 1996.
 higher court if appeals or reviews
 were made, resulting from the
 preliminary investigations of such
 crimes in a given year.

  (2) Length of time for a criminal         Yes           No                                   No          Some data was
  case to be completed from the                                                                              based on
  opening of the preliminary                                                                               undocumented
  investigation to the court finding.                                                                         phone
                                                                                                           conversations.

  (3) Percentage of investigative           Yes          Yes           No                      Yes         Reported results
  findings resulting from the                                                                              were 26 percent
  preliminary investigations of such                                                                      for regional units
  crimes on the regional and other                                                                        and 48 percent for
  selected prosecutorial units.                                                                            ordinary units.
                                                                                                            Actual results
                                                                                                           were 49 percent
                                                                                                           and 62 percent,
                                                                                                             respectively.

  (4) Length of time from opening           Yes           No                                    No         Documentation
  of a preliminary investigation to                                                                       was not available
  achieving an investigative result.                                                                      at the time of the
                                                                                                                 audit.

  (5) Percentage of decisions               Yes          Yes           No                      Yes         Reported results
  (dismissal or indictment) resulting                                                                      were 27 percent
  from formal criminal                                                                                    for regional units
  investigations in the regional or                            ri
                                                               c
                                                                                                          and 39 percent for
  other selected prosecutorial units.                                                                      ordinary units.
                                                                                                            Actual results
                                                                                                           were 47 percent
                                                                                                           and 55 percent,
                                                                                                             respectively.




         To avoid duplicating the problems related to the reported results (e.g., a reported result could be both not
supported and not accurate), we classified indicator results as having only one problem according to the following
hierarchy: not objectively verifiable, not supported, not accurate and not complete. We did, however, classify results as
not validated (if applicable) in addition to another problem because we believe that the requirement for operating units
to assess the quality of data sources was a distinct function and potentially related to each of the types of problems
included in the hierarchy. We did not assess whether a result was validated if the result was not objectively verifiable.
                                                                                                          APPENDIX II
                                                                                                            Page 2 of 3

                                       Objectively   Supported?      Accurate?   Complete?   Validated?     Explanation of
             Indicator                 Verifiable?                                                         problem, if any,
                                                                                                            except for not
                                                                                                              validated

(6) Length of time from the               Yes            No                                     No          Documentation
initiation of a formal criminal case                                                                       was not available
investigation to a final case                                                                              at the time of the
decision or to higher prosecutorial                                                                               audit.
unit, if appeals were made, in the
regional and other selected
prosecutorial units and criminal
courts.

(7) Percentage of court findings           Yes          Yes          Unknown        No          No         Data was for the
resulting from total of cases                                                                              period January to
addressed in the courts in a year.                                                                            June 1996.

(8) Number of conflicts annually           Yes          Yes          Unknown        No           No        Based on only 98
resolved through alternative                                                                               out of 140 centers
conflict resolution mechanisms                                                                                 reporting.
operating in conciliation centers.

(9) Percent of cases received at           Yes          Yes          Unknown        No           No        Some data was
the houses of justice which are                                                                           not for a full year.
resolved through ADR [alternative
dispute resolution] mechanisms.

(10) Total number of cases                 Yes          Yes          Unknown        No           No        Data was for the
assigned to public defenders and                                                                           period January to
percentage of cases addressed out                                                                          November 1996.
of the total cases assigned.
(11) Percentage of favorable               Yes          Yes          Unknown        No           No        Data was for the
sentences for the defendants                                                                               period January to
assisted by public defenders of                                                                            November 1996.
total sentences in cases assigned to
public defenders.

(12) Percentage of disciplinary            Yes          Yes          Unknown        No           No        Data was for the
actions by AGO [Attorney                                                                                   period July 1995
General’s Office] against justice                                                                           to May 1996.
sector personnel involved in
human rights violations out of                                -l A
total disciplinary actions by the
AGO against public officers
involved in human rights
violations.

(13) Percentage of disciplinary            Yes           Yes         Unknown        No           No        Data was for the
actions by AGO against justice                                                                             period July 1995
sector personnel involved in                                                                                to May 1996.
bribery and illicit enrichment out
of the total disciplinary actions by
the AGO against justice personnel.


(14) Development and                       No                                                                 No criteria
implementation of a long-term                                                                                established to
self-sufficient financial strategy.                                                                           objectively
                                                                                                            measure results.
                                                                                                      APPENDIX II
                                                                                                        Page 3 of 3
L




                                      Objectively   Supported?   Accurate?   Complete?   Validated?     Explanation of
                Indicator             Verifiable?                                                      problem, if any,
                                                                                                        except for not
                                                                                                          validated

    (15) Development of a strategic       No                                                             No criteria
    plan and a pro-ject strategy                                                                        established to
    implemented.                                                                                         objectively
                                                                                                       measure results.
    Number of No Answers                   2            3            2           8           11
                                                                                APPENDIX III
                                                                                   Page 1 of 3

                   Federal Laws and Regulations, and USAID Guidance
                      Relevant to Measuring Program Performance

There are numerous federal laws and regulations requiring USAID (and other federal agencies)
to develop and implement internal management controls to measure and report on program
performance. Discussed below are examples of those requirements as well as related USAID
policies and procedures.

Laws and Regulations

Chief Financial Officers Act of 1990 requires management internal controls which provide for
(1) complete, reliable, consistent, and timely information which is prepared on a uniform basis
and which is responsive to the financial information needs of agency management; and (2) the
systematic measurement of performance.

Standards for Internal Controls in the Federal Government issued by the U.S. General
Accounting Office in 1983 requires systems of internal controls that ensure that all transactions
and other significant events are to be clearly documented, and that the documentation be readily
available for examination.

OMB Circular No. A- 123 (dated June 2 1, 1995), which is the executive branch’s implementing
policy for compliance with the Federal Managers’ Financial Integrity Act of 1982, requires
agencies to have management internal controls to ensure that (1) programs achieve their intended
results; and (2) reliable and timely information is obtained, maintained, reported and used for
decision making.

OMB Bulletin 93-06 (dated January 8, 1993) requires agencies to have internal control systems
to provide reasonable assurance that support for reported performance results are properly
recorded and accounted for to permit preparation of reliable and complete performance
information.

The Foreign Assistance Act (Section 621A), & amended in 1968, requires USAID to develop and
implement a management system that provides for comparing actual results of programs and
projects with those anticipated when they were undertaken. The system should provide
information to USAID and to Congress that relates USAID resources, expenditures, and budget
projections to program objectives and results in order to assist in the evaluation of program
performance.

USAID Policies and Procedures

The most recent USAID system, known as the Automated Directives System for Managing for
Results (ADS 200 Series), for measuring and reporting on program performance was initiated in
October 1995. This new system requires (Section 203.5.1 a) that operating units establish




                                                                                     .
                                                                                  APPENDIX III
                                                                                     Page 2 of 3

performance monitoring systems to regularly collect and analyze data which will enable them to
track performance and objectively report on the progress in achieving strategic objectives and
intermediate results. The system also requires (Sections 203.55, 203.5.5e, E203.5.5 and
203.5.9a) operating units to:

a   establish objective performance indicators (with related baseline data and targets) to measure
    progress in achieving program objectives;

0
    critically assess the performance data at regular intervals to ensure that reported performance
    data are of reasonable quality and accurately reflect performance; and

l   prepare an annual Results Review and Resource Request (R4) report which must include
    performance information on progress in achieving its program objectives for the immediate
    past fiscal year.

TIPS No. 6 “Selecting Performance Indicators,” which is supplemental guidance to the ADS,
defines objective as:

    An objective indicator has no ambiguity about what is being measured. That is, there is
    general agreement over interpretation of the results. It is both unidimensional and
    operationally precise. To be unidimensional means that it measures only one phenomenon
    at a time. . . . Operational precision means no ambiguity over what kind of data would
    be collected for an indicator. For example, while number of successful export firms is
    ambiguous, something like number of export firms experiencing an annual increase in
    revenues of at least 5 percent is operationally precise.

TIPS No. 7 “Preparing a Performance Monitoring Plan,” which is also supplemental guidance to
the ADS, stipulates that each performance indicator needs a detailed definition. The definition
should be detailed enough to ensure that different people at different times, given the task of
collecting data for a given indicator, would collect identical types of data. The definition should
be precise about all technical elements of theindicator
                                              *           statement. For example, the TIPS states:
                                              I

    As an illustration, consider the indicator number of small enterprises receiving loans from
    the private banking system. How are small enterprises defined-all enterprises with 20
    or fewer employees, or 50 or lOO? What types of institutions are considered part of the
    private banking sector-credit unions, government-private sector joint-venture financial
    institutions?

ADS Section E203.5.5 also requires operating units to (I) assess data quality as part of the
process of establishing performance indicators and choosing data collection sources and methods;
(2) collect results data for each performance indicator on a regular basis; and (3) reassess data
quality as is necessary but at intervals of no greater than three years. These policies and
                                                                                   APPENDIX III
                                                                                      Page 3 of 3

procedures also state that if data for a performance indicator prove to be unavailable or too costly
to collect, the indicator may need to be changed.

In addition, ADS section 203.5.8~ states that USAllD will conduct a review of performance on
an annual basis which will include analyzing operating units’ performance and “shall focus on
the immediate past fiscal year,” but may also review performance for prior years.

USAID guidance issued in January 1997 for preparing the R4s stated that the goal of the
guidance was to generate R4s which ensure that USAIDNVashington management has the
information it needs to make results-based resource allocations among operating units and report
on USAID’s achievements. The guidance also stated that the most effective R4s are those that
(1) assess performance over the life of objectives, with an emphasis on the past year, using
established indicators, baseline data and targets; and (2) state explicitly whether and how much
progress or results surpassed, met or fell short of expectations. The guidance stated that the
results should cover actual performance through fiscal year 1996.
